Department of Homeland Security
   Ofﬁce of Inspector General


         FEMA's Temporary Housing Unit 

      Program and Storage Site Management





OIG-09-85                              June 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      June 29, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency’s (FEMA) Temporary Housing Unit Program site management and
oversight. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                         Richard L. Skinner 

                                         Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................3


    Budget Development and Oversight...............................................................................3 

    Contract Management.....................................................................................................4 

    Conclusion ......................................................................................................................6

    Recommendations...........................................................................................................7

    Management Comments and OIG Analysis ...................................................................7 


Appendices
   Appendix A:          Purpose, Scope and Methodology ............................................................8 

   Appendix B:          Management Comments to the Draft Report ............................................9 

   Appendix C:          Major Contributors to this Report ...........................................................12 

   Appendix D:          Report Distribution..................................................................................13 


Abbreviations
     COTR                Contracting Officer’s Technical Representative 

     DHS                 Department of Homeland Security 

     EHU                 Emergency Housing Unit 

     FAR                 Federal Acquisition Regulation 

     FEMA                Federal Emergency Management Agency 

     FPS                 Federal Protective Service 

     GCRO                Gulf Coast Recovery Office 

     LMD                 Logistics Management Directorate 

     IFMIS               Integrated Financial Management Information System

     OIG                 Office of Inspector General 

     OMB                 Office of Management and Budget 

     THU                 Temporary Housing Unit 

OIG

Department of Homeland Security
Office of Inspector General

  Executive Summary
                   The logistics function of the Federal Emergency Management
                   Agency (FEMA) has undergone dramatic changes following a
                   Congressionally-mandated reorganization in 2007. As part of that
                   reorganization, the new Logistics Management Directorate (LMD)
                   has strengthened operations, property management, and
                   coordination with other emergency providers, and has increased
                   staffing with experienced logisticians.

                   Notwithstanding the initiatives that have been introduced, there are
                   issues with the LMD field staging areas that need to be addressed.
                   At the time of our fieldwork in mid-2008, LMD did not have an
                   accounting system that adequately tracked field sites’ expenses.
                   Consequently, field managers reported difficulty in overseeing
                   their sites’ finances. Field managers were also dissatisfied with the
                   staging area contracts for security and grass cutting services.

                   The contracts for security guards and for grass cutting services
                   were managed by remotely located contracting officials, without
                   on-site task monitors to oversee contractor performance. Because
                   FEMA did not have adequate contract controls in place, it overpaid
                   for services that, in some instances, hindered operations and posed
                   potential safety hazards.

                   We conducted this review at the request of FEMA senior
                   management, who asked us to examine several issues that occurred
                   prior to the creation of LMD. This report focuses on conditions at
                   the field sites at the time of our visits in 2008, and contains three
                   recommendations to assist FEMA in its management and oversight
                   of the field staging areas. FEMA has concurred with the reports’
                   findings and has agreed to take corrective actions, some of which
                   are already underway.




           FEMA’s Temporary Housing Unit Program and Storage Site Management

                                        Page 1
    Background
                         In 2007, the Federal Emergency Management Agency (FEMA)
                         requested the Office of Inspector General (OIG) to review certain
                         inconsistencies that had come to the agency’s attention involving
                         the management of the hundreds of thousands of travel trailers and
                         mobile homes that had been purchased to shelter displaced disaster
                         victims following Hurricane Katrina. Those concerns involved
                         actions taken by the predecessor office of the current Logistics
                         Management Directorate (LMD).

                         This audit represents the third and final phase of our
                         comprehensive review of the Temporary Housing Unit2 (THU)
                         program in response to FEMA’s request. In this most recent
                         phase, we reviewed the agency’s management of the THU program
                         at headquarters and at nine temporary housing staging areas in
                         Louisiana and Mississippi. The previous phases addressed
                         FEMA’s (1) use of proceeds from the sale of trailers,3 and
                         (2) acquisition of two warehouses.4 During the course of our field
                         work on the three OIG reviews, the logistics function was
                         undergoing a transformation in connection with FEMA’s
                         reorganization that was mandated by the Post-Katrina Emergency
                         Management Reform Act of 2006 (Public Law 109-295), and
                         included the formation of LMD.

                         The reorganization has introduced initiatives and management
                         controls that were absent in FEMA’s logistics program prior to
                         2007. What had been an improvised logistics operation before the
                         reorganization has been replaced by an organized unit, staffed by
                         experienced logisticians. The previous organization’s operations
                         were marked with fiscal irregularities and unauthorized spending,
                         as we previously reported. The new organization has increased
                         staffing at headquarters and the field, issued standardized policies
                         and procedures, and put in place an organization that emphasizes
                         management control. Field sites previously managed by the Gulf
                         Coast Recovery Office (GCRO) came under the direct control of
                         LMD in 2008.

                         LMD has taken steps to strengthen operations, property
                         management, and coordination with partners outside the agency.

2
  The THU originally was referred to as EHU (Emergency Housing Unit); it was changed in 2008. 

3
  OIG-08-23, Review of FEMA’s Use of Proceeds from the Sales of Emergency Housing Units, dated

February 2008. 

4
  OIG-09-77, FEMA’s Acquisition of Two Warehouses to Support Hurricane Katrina Response 

Operations, dated June 2009.

                FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                               Page 2

               Some of the shortcomings we are reporting are remnants of the
               “old” FEMA. However, they have continued since 2007, and
               therefore, are the responsibility of LMD. We are currently
               conducting a review of how the logistics reorganization has
               prepared FEMA to respond to catastrophic disasters.

Results of Review
               Notwithstanding the initiatives that have been introduced, the
               LMD field staging areas face challenges that need to be addressed
               by FEMA headquarters. Those issues include oversight of the
               field budgeting and contracting. Each site we visited was led by
               experienced managers, and staffed by individuals who focused on
               administration, security, maintenance, and property accountability.
               Staffing issues that did arise involved the contractor workforce.

               The nine staging areas we visited contain more than 75,000
               temporary housing units that FEMA plans to eventually dispose.
               Until a number of issues are resolved, including formaldehyde
               contamination, those sites will remain open and collectively will
               cost FEMA more than $50 million each year to operate.

       Budget Development and Oversight
               One issue that surfaced in the field and at headquarters was the
               inability of THU managers to access the staging area sites’ budget
               and accounting data. As part of the logistics transformation, field
               sites that had previously been managed by the GCRO came under
               the direct control of LMD headquarters, and in the process, lost
               access to the GCRO’s off-the-shelf budget and accounting system.

               At the time of our site visits, LMD did not have adequate visibility
               over expenses and could not identify incurred costs by site.
               Similarly, the field managers did not have visibility over their own
               site expenses and budget balances, and thus had difficulty
               managing the sites’ finances with the headquarters-produced
               budget reports. Those budget reports that were produced without
               field input were unreliable and contained erroneous information.
               Examples included construction-related costs at sites that had no
               construction projects, and electric utility expenses at a site that
               operated on government-furnished generators.

               Starting in late 2008, FEMA took steps to address the conditions
               on which we reported. Those initiatives included enhanced budget
               tracking for headquarters and the field and providing bi-weekly
       FEMA’s Temporary Housing Unit Program and Storage Site Management

                                    Page 3
                         budget reports to the field. There are plans to enable field
                         coordinators to have real-time visibility over the status of their
                         budgets by 2010.

                Contract Management
                         Site managers were dissatisfied with the contract security guard
                         service provided under a Federal Protective Service (FPS) contract.
                         The managers reported over-staffing at some sites, including
                         round-the-clock guard service at gates that are not being used.
                         Furthermore, managers were unable to tell if the guards were
                         fulfilling the terms of the contract because they had never been
                         provided a copy of the contract. Also, the site managers did not
                         have copies of the “post orders” issued by a remotely-located
                         contracting official that delineate the guards’ duties. Without these
                         documents, site managers could not oversee the guards, or
                         determine if they were performing according to the contract.
                         Although the sites were in relatively low-risk areas, with only
                         occasional trespassing reports, FEMA could not determine if it was
                         getting what it paid for under the contract.

                         Subpart 37.5 of the Federal Acquisition Regulation (FAR), and the
                         implementing guidance in the Office of Management and Budget’s
                         (OMB) Office of Federal Procurement Policy Letter 93-15 requires
                         clearly-defined contract requirements, performance standards, and
                         effective management oversight. Occasional site visits by the
                         remotely-located contracting officer’s technical representative
                         (COTR) and FEMA task monitors do not provide adequate
                         oversight. FEMA needs to designate technical monitors at each
                         site to monitor and ensure that the contract terms and conditions
                         are followed.

                         Another common concern among site managers was the poor
                         performance of the contractor for grass cutting service. This
                         service falls under the multi-million dollar contract FEMA has
                         with Alutiiq Global Solutions, of which grass cutting at the sites is
                         only a small part. FEMA pays more than $4 million a year at those
                         9 sites to a contractor that does a poor job cutting the grass. Site
                         managers have complained to headquarters, citing that the previous
                         arrangement, which used disaster assistance employees for grounds
                         maintenance and other tasks, was more effective and cost less than
                         the current contract. We observed tall grass at several of the sites
                         we visited, where managers expressed their concern that the tall

5
 OMB Office of Federal Procurement Policy Letter 93-1, Management Oversight of Service Contracting,
dated May 18, 1994.
                FEMA’s Temporary Housing Unit Program and Storage Site Management

                                               Page 4
                           grass complicates activities and provides a haven for poisonous
                           snakes that may have contributed to a snakebite incident at one of
                           the Louisiana sites. Furthermore, the tall, un-cut grasses present a
                           potential fire hazard during the dry-weather season.

                           Mississippi site managers provided headquarters with a cost
                           analysis that indicated FEMA could contract with a local grass
                           cutting service that would be more reliable and save the
                           government more than $1 million each year at the THU sites in
                           that state. Headquarters took no action on the site managers’
                           suggestions.

                           FEMA needs to stop using the grass cutting contract as a personal
                           services contract. The services provided were (1) performed at the
                           government-controlled site; (2) integral to the program’s mission;
                           and (3) carried out using government-furnished tools and
                           equipment. Furthermore, FEMA requested specifically-named
                           Alutiiq employees for tasks at FEMA sites. Unless explicitly
                           authorized by statute, personal services contracts are prohibited by
                           FAR 37.104.6

                           Without a COTR or a task monitor at the sites, FEMA does not
                           have assurance that the tasks paid for were actually performed.
                           The FEMA program office relied on contractor-provided
                           documents to support the contractor’s invoices, instead of on-site
                           verification. FEMA program officials claimed to be unaware of
                           problems with this contract, despite the fact that the field site
                           managers had communicated the problems on numerous occasions.

                           This lack of contractual control is contrary to Subpart 37 of the
                           FAR, and inconsistent with OMB Circular A-123’s7 guidance on
                           management controls, and needs to be addressed.

                           Some of these contract deficiencies might have been avoided if the
                           contract had been submitted for a legal review as required by the
                           Homeland Security Acquisition Manual.8 This contract was not
                           presented to FEMA counsel for review, and is another example of
                           situations we have observed with large-dollar FEMA contracts
                           being awarded without required legal review.


6
  FAR, subpart 37.104(b) provides that federal agencies shall not award personal services contracts unless
specifically authorized by statute to do so. FEMA was not specifically authorized to award this personal
services contract.
7
  OMB Circular A-123, Management’s Responsibility for Internal Control, dated December 2004.
8
  Homeland Security Acquisition Manual subsection 3004.7003(c) (1) requires a legal review of all
contracts in excess of $500,000.
                  FEMA’s Temporary Housing Unit Program and Storage Site Management

                                                  Page 5
        FEMA has taken a number of steps to address the contract-related
        issues. It initiated the acquisition process and anticipates awarding
        a contract by June 2009 to replace the Alutiiq contract that is in its
        last option year. The new contract, which will not include grounds
        maintenance services, has already been reviewed and approved by
        FEMA’s Office of Chief Counsel, and will provide for task
        monitors at each site. A separate grounds maintenance contract
        that will use local vendors for the field sites is also expected to be
        awarded in June 2009. That contract requires COTRs at each site.
        Through training and monitoring, FEMA will ensure that the new
        contracts will not be used as personal services contracts.

        Regarding the security contract, post orders have been requested
        from FPS for each location, and FEMA has appointed an
        individual at each site to assist with invoice certification. FEMA
        has had discussions with FPS regarding the security contract
        compliance, and has requested modifications to change the level of
        guard support at some locations.

Conclusion
        LMD has undergone significant changes since it was reorganized
        in 2007. As part of that reorganization, LMD has strengthened
        operations, property management, and coordination with other
        emergency providers, and has augmented staffing with experienced
        logisticians. The reorganization also transferred to LMD several
        field sites previously managed by the Gulf Coast Recovery Office.

        The transfer of those field sites introduced management control
        issues, including inadequate budget and accounting data, and lack
        of technical monitors to provide oversight of contracts that furnish
        security and grass cutting services, the latter which was used as a
        personal services contract.

        FEMA has taken corrective actions or plans to address the issues
        discussed in this report. It is developing a detailed corrective
        action plan, including timeframes, to address those issues.




FEMA’s Temporary Housing Unit Program and Storage Site Management

                             Page 6
Recommendations
        We recommend that the Administrator, Federal Emergency
        Management Agency:

        Recommendation #1: Provide budget and accounting information
        in periodic reports to THU site management.

        Recommendation #2: Designate a technical monitor for each
        THU site for security and grass cutting service contract oversight;
        and provide each site with copies of the contract, post orders, and
        other necessary documents.

        Recommendation #3: Cease using the Alutiiq contract as a
        personal services contract, and improve management controls over
        contractors.

Management Comments and OIG Analysis

        FEMA concurs with the report’s findings and has agreed to take
        corrective actions to address the recommendations; some actions
        have already been initiated. Those initiatives include enhanced
        budget tracking; bi-weekly field budget reports; and plans for real-
        time visibility over site budgets.

        Furthermore, FEMA has taken a number of steps to address
        contractual issues, including initiating two new acquisitions to
        replace the Alutiiq contract that have already cleared required legal
        review, and will provide for on-site monitoring to ensure
        compliance with regulations and with contract terms. Security
        contract post orders have been requested from FPS for each
        location, and FEMA has appointed an individual at each site to
        assist with invoice certification. FEMA has discussed contract
        compliance with FPS and has requested modifications to change
        the level of guard support at some locations.

        FEMA has promised to provide us with a detailed corrective action
        plan, including timeframes, to address those issues. FEMA’s
        described actions meet the intent of the three recommendations,
        which are considered resolved, pending receipt of the detailed
        corrective action plan. We will close the recommendations upon
        verification of implemented corrective action.




FEMA’s Temporary Housing Unit Program and Storage Site Management

                             Page 7
Appendix A
Purpose, Scope and Methodology

                    This audit was the third phase of a comprehensive review of
                    LMD’s Temporary Housing Unit program that we performed at
                    FEMA’s request. The first phase examined the agency’s use of
                    proceeds from the sale of trailers and mobile homes, and the
                    second phase focused on the acquisition of two warehouses. The
                    current audit assessed field operations management.

                    Specifically, we reviewed the agency’s management of the
                    program at nine temporary housing staging areas in Louisiana
                    (Baton Rouge, DeRidder, Lottie, and Melville) and Mississippi
                    (Carnes, Columbia, Hickory Grove, Lumberton, and Purvis), and
                    at two regional coordination centers (Biloxi and Baton Rouge).
                    Program costs at those sites exceed $50 million annually. We
                    observed field operations and discussed issues with site
                    management and with headquarters officials. Our review did not
                    include a test of the validity and reliability of any computer-
                    generated data as we did not rely on any computer-generated data
                    as part of this audit.

                    At the time of our field visits in mid-2008, management of the sites
                    had recently transferred to FEMA headquarters. Previously, the
                    Gulf Coast Recovery Office managed those sites. That transition
                    posed certain complications on which we focused, including
                    staffing, budget oversight, maintenance, contracting, and security
                    issues.

                    This audit was performed under the authority of the Inspector
                    General Act of 1978, as amended, and according to Generally
                    Accepted Government Auditing Standards for performance audits.
                    Audit fieldwork was conducted from April through October 2008,
                    in the Washington, DC, area and at several field sites.




            FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                          Page 8

Appendix B
Management Comments to the Draft Report




            FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                          Page 9 

Appendix B
Management Comments to the Draft Report




            FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                         Page 10

Appendix B
Management Comments to the Draft Report




            FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                         Page 11

Appendix C
Major Contributors to this Report

                     Gina Smith, Director
                     John Meenan, Senior Program Analyst
                     Christine Alvarez, Program Analyst
                     Kristofer Hensley, Program Analyst




             FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                          Page 12 

Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Administrator, Logistics Management Directorate
                      Director, FEMA’s Office of Management/Chief Procurement Officer
                      FEMA’s Chief Financial Officer
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             FEMA’s Temporary Housing Unit Program and Storage Site Management 


                                          Page 13

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
